                          U.S. Department of Agriculture

                            Office of Inspector General
                           Food and Marketing Division




               Audit Report

     Assessment of USDA’s Controls for
The Beef Export Verification Program for Japan




                                Report No. 50601-11-HQ
                                         February 2006
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                          OFFICE OF INSPECTOR GENERAL

                                                Washington D.C. 20250




February 16, 2006

TO:                Mike Johanns
                   Secretary of Agriculture

THROUGH: Phyllis K. Fong /s/
         Inspector General

FROM:              Robert W. Young /s/
                   Assistant Inspector General
                     for Audit

SUBJECT:           Assessment of USDA’s Controls for the Beef Export Verification Program for
                   Japan (Audit Report No. 50601-11-HQ)


Summary

At your request, we performed an audit 1 to identify the controls put in place to ensure beef
products met the requirements of the beef export verification (BEV) program for Japan, examine
whether the controls broke down, and determine whether additional actions can be taken to
ensure future compliance by responsible agency employees. We concluded that the Agricultural
Marketing Service (AMS) and the Food Safety and Inspection Service (FSIS) could strengthen
their controls over the BEV program by improving processes used to communicate BEV
program requirements, clearly defining roles and responsibilities, and implementing additional
oversight of FSIS inspection personnel.

Background

Japan banned beef and beef products from the United States in December 2003 after the first
case of Bovine Spongiform Encephalopathy, widely know as BSE or “mad cow disease,” was
found in the State of Washington. In October 2004, representatives from the Governments of the
United States and Japan met in Tokyo to discuss the resumption of beef trade between the two
countries. As a result of the discussions, the two Governments shared the view that the two
countries would resume two-way trade in beef and beef products, subject to their respective
domestic approval processes based upon science. On December 11, 2005, the Secretary of
Agriculture (Secretary) announced that the Japanese market was open to U.S. beef products.
Under the agreement with Japan, the United States was able to export beef from cattle 20 months


1
    See Scope and Methodology for additional details.
Secretary Johanns                                                                                               2


of age and younger. Prior to the December 2003 ban, the United States exported $1.4 billion
worth of beef and beef products to Japan.

The export of U.S. meat products to foreign countries is facilitated by the activities of three
separate but interdependent entities: the U.S. meat industry, FSIS, and AMS.

•     The U.S. meat industry is responsible for the slaughter of healthy animals and preparation of
      food products that are wholesome, properly labeled, and not adulterated. In addition to
      meeting U.S. food safety standards, the industry must meet all other requirements imposed
      by importing countries. For example, Japan required the removal of vertebral columns from
      the carcasses of cattle.

•     FSIS is responsible for the inspection of meat products and the certification of products for
      export to other countries. For the domestic market, FSIS’ regulatory activity is complete
      when FSIS applies the USDA mark of inspection. When product is then prepared for export
      to foreign countries, additional verifications are necessary after inspection is complete in
      order for FSIS officials to execute the certifications that products meet export requirements.

•     AMS provides a bridge between the U.S. meat industry and FSIS to facilitate export
      certifications. AMS’ export verification program is designed to encompass importing country
      requirements that are not components of FSIS inspection activities. In December 2005 and
      January 2006, AMS approved a total of 40 U.S. plants as eligible to provide product for
      export to Japan under the export verification program.

On January 20, 2006, Japanese officials announced that their nation halted the import of beef
products from the United States. This action was taken because veal product from a U.S. plant
contained the vertebral column in violation of the agreement between the United States and
Japan. 2

On the same date, in response to Japan’s decision, the Secretary announced 12 actions USDA
would undertake to facilitate resuming trade. These actions include delisting and investigating
the plant that exported the ineligible product, requiring a second signature on export certificates,
providing training to inspection personnel on export certification, and holding meetings with
inspection officials and industry representatives to reaffirm program requirements. These actions
are intended to address weaknesses in the controls for the BEV program for Japan.

On January 27, 2006, the Secretary requested that the Inspector General perform an audit to
evaluate the adequacy of USDA’s coordination and control processes for the beef export
verification program for Japan.




2
    Atlantic Veal and Lamb, Inc. (Atlantic) was the U.S. plant that exported ineligible veal product to Japan. The
    ineligible product was made from veal carcasses that Atlantic received from Golden Veal Corporation (Golden).
Secretary Johanns                                                                                                  3


Objective

Our objective was to evaluate the adequacy of USDA’s coordination and control processes for
the BEV program for Japan. Specifically, we examined the (1) adequacy of AMS and FSIS
procedures and controls to ensure that the specified product requirements were met for beef
products exported to Japan; (2) processes used by the agencies to communicate the procedures
and controls to affected agency employees and to train these employees; and (3) adequacy of
agency controls to validate that agency employees understood and implemented the procedures.

Scope and Methodology

We performed our audit at AMS and FSIS Headquarters in Washington, D.C. We also relied on
the results of interviews conducted by FSIS’ Office of Program Evaluation, Enforcement, and
Review (OPEER) and the Office of Inspector General’s (OIG) Investigations Division. 3 We
performed our audit fieldwork from January 30 to February 7, 2006. To accomplish our
objectives we interviewed appropriate officials, examined pertinent documentation, and
reviewed applicable policies and procedures.

We interviewed AMS and FSIS officials to gain an understanding of the procedures and controls
used to ensure that the specified product requirements were met for beef products exported to
Japan; the processes used to communicate expectations to affected agency employees; and the
controls the agencies used to validate that procedures were adequately implemented.

•     At AMS, we interviewed the Deputy Administrator for Livestock and Seed Programs; the
      Chief of the Livestock and Meat Standardization Branch; and the Chief of the Audit, Review,
      and Compliance Branch.

•     At FSIS, we interviewed the Assistant Administrator for Field Operations; the Deputy
      Assistant Administrator for International Affairs; the District Manager in Chicago, Illinois;
      and Deputy District Managers for the Albany, New York and Des Moines, Iowa District
      Offices.

•     We also gained an understanding of the agreement with Japan by interviewing the Acting
      Under Secretary for Marketing and Regulatory Programs, who was a member of the team
      that negotiated the agreement.

To gain an understanding of the actions by individuals that caused Japan to decide to halt
imports of beef products from the United States, we relied on the results of interviews conducted
by FSIS’ OPEER and OIG’s Investigations Division. They interviewed plant management for
Atlantic and Golden. They also interviewed FSIS inspection personnel at these plants and AMS


3
    At the time we began this review, FSIS’ OPEER and OIG’s Investigations Division were interviewing agency and
    plant personnel and obtaining pertinent export documents to investigate the circumstances that allowed this event
    to occur. The results of that review will be reported in a separate document. This audit relies, in part, on the
    information obtained during the course of the joint investigation.
Secretary Johanns                                                                                        4


personnel that reviewed and approved the plants as eligible to provide product for export to
Japan.

We analyzed AMS’ policies and procedures regarding its BEV program for Japan. In addition,
we examined FSIS’ policies and procedures for certifying product for export and evaluating the
performance of inspection personnel. Finally, we analyzed the Quality System Assessment,
Export Verification (QSA/EV) Program Manual for Japan (QSA/EV Manual) for Atlantic and
Golden.

We conducted the audit in accordance with Government Auditing Standards established by the
Comptroller General of the United States. We did not visit any plants to analyze and observe
how AMS, FSIS, and plant personnel audited, verified, and implemented the requirements of the
beef export verification program. This type of analysis was not possible because our fieldwork
occurred during the period when there was no trade of United States beef products with Japan.
As a result, the scope of our work was limited because we could not perform tests to fully assess
how (1) FSIS district and inspection officials verified requirements related to the beef export
verification program, (2) AMS officials audited requirements to determine plants were eligible to
export product to Japan, and (3) plants, other than Atlantic and Golden, adhered to the specified
product requirements for exporting beef products to Japan.

Audit Results

Both AMS and FSIS have begun to formulate the procedures and controls they will implement to
address the 12 actions announced by the Secretary and to provide assurance that BEV
requirements are met in the future. In addition to these actions, we concluded that management
controls over the BEV program can be further strengthened. We found that the enforcement of
compliance with BEV requirements broke down because the processes and documents used to
communicate the specific plants and Japanese requirements for export to the field inspectors
were insufficient and non-specific. In this case, neither the FSIS Consumer Safety Inspector
(CSI) nor the Supervisory Public Health Veterinarian (VMO) were familiar with the Japan BEV
program or understood their roles and responsibilities for signing and certifying export
documents. Our observations follow.

      •   AMS publishes a list of the plants it approves for the Japan BEV program on its web site;
          FSIS’ web-based Export Library is linked to the AMS web site. FSIS requires its
          inspectors to check its Export Library to review the requirements for the importing
          country and determine if a plant submitting an application for export has been approved
          for the BEV program. Plants approved for the Japan BEV program are required to have
          processes in place that assure compliance with the specified product requirements. In
          part, AMS requires 4 the exclusion of specified risk materials (SRM) and certain other
          materials. The FSIS Export Library identifies eligible and ineligible products in a broad
          sense (i.e., beef and beef offal, etc.) and by listing the materials required to be excluded.
          Although Japan does not identify specific products that are eligible, any product that
4
    ARC 1030J Procedures, USDA Export Verification Program Specified Product Requirements for Beef – Japan,
    dated December 12, 2005.
Secretary Johanns                                                                                                   5


          includes any of the listed materials is not eligible. To facilitate confirmation of
          compliance with the agreement with Japan, we recommend that AMS include on its web
          site the specific beef products that would be consistent with the agreement. We also
          recommend that AMS and FSIS jointly develop an operational process (compensating
          control) that requires confirmation of both the eligibility of the plant and the products for
          export, prior to FSIS certifying export documents.

      •   AMS requires plants on the approved list to prepare a QSA/EV Manual. 5 The QSA/EV
          Manuals for Atlantic and Golden included the specified product requirements for Japan
          but did not contain all the specific process controls required (although the latter had been
          communicated to all participating plants). Instead, the QSA/EV Manuals refer only to
          plant HACCP, SSOP, and SOP operational procedures, 6 which are applicable to their
          domestic operations. The QSA/EV Manuals also refer to the plants’ Application for
          Service, Form LS-313. 7 During the interviews conducted by FSIS’ OPEER and OIG’s
          Investigations Division with AMS and plant personnel, differences were identified in
          plant personnel’s understanding as to what the specific BEV requirements were, what
          products were eligible to export, and what specifically was discussed with AMS staff
          prior to being approved to export. To strengthen compliance and enforcement, we
          recommend that AMS work with plant personnel to revise the QSA/EV Manuals and
          include the specific products and process requirements necessary for the Japan BEV
          Program. AMS officials have advised that they plan to review all QSA/EV Manuals for
          all companies on the approved BEV list.

      •   FSIS needs to clarify the roles and responsibilities of personnel involved in the export
          certification process. The CSI stated he signed the application for export certifying that
          the box count and product descriptions matched the details on the application; the CSI
          thought the VMO was responsible for certifying that the requirements of the receiving
          country were met. The VMO, however, stated that his duties require that he make sure
          that the export paperwork is complete and accurate after the CSI completes an inspection
          on product destined for export. The VMO stated that since being assigned to the District
          in June 2005, he was directed by the Deputy District Manager to perform a document
          review only. The VMO was concerned that this conflicted with the Supervisory Public
          Health Veterinarian training he received in 2005 which included “hands on” (product
          review) export inspection verification. He did not review Japan BEV requirements since

5
    AMS requires plants to establish and maintain a quality manual that includes such things as: (a) an organizational
    chart or similar document listing all personnel assigned to managerial positions with in the program; (b) a
    description of the scope of the plant’s quality management system, (c) the specified product requirements, and
    (d) documented procedures established for the quality management system.
6
    Hazard Analysis and Critical Control Point (HACCP) is a systematic approach to food safety that addresses
    physical, chemical, and biological hazards as a means of prevention through the identification of Critical Control
    Points. These Critical Control Points are key actions that can be taken to reduce or eliminate the risk that food
    safety hazards will occur. Sanitation Standard Operating Procedures (SSOP) and Standard Operating Procedures
    (SOP) describe all procedures an official establishment will conduct daily, before and during operations,
    sufficient to prevent direct contamination or adulteration of product.
7
    Form LS-313 is used by parties interested in receiving services from AMS’ Meat Grading and Certification
    Branch for such services as beef, calf, veal, or lamb grading or meat certification.
Secretary Johanns                                                                                   6


          he no longer performs “hands on” export verification activities. The Deputy District
          Manager confirmed that the VMO is to review the export certificate and any other
          associated documents. He stated that the VMO is certifying that the paperwork is
          correct; therefore, performing “hands on” export verification is not normally needed. He
          explained that if there is a problem or question regarding the lot, then the VMO can
          examine the product.

      •   FSIS relied on its export certification directive (FSIS 9000.1, dated September 9, 1999)
          to communicate the roles and responsibilities of its staff in inspecting and certifying
          export requirements. FSIS also put the specific export requirements for Japan on its
          web-based Export Library. In December 2005, FSIS headquarters held a conference call
          with District Managers to discuss the requirements for exports to Japan. In addition, a
          series of e-mail messages were sent to the District Managers again emphasizing the need
          to ensure compliance. However, no additional actions were taken to ensure that FSIS
          field staff understood their responsibilities for signing and certifying export certificates
          for Japan. The FSIS Deputy District Manager responsible for Atlantic did not participate
          in the conference call because, at that time, none of the plants in the district were
          approved to export to Japan and was not made aware when Atlantic was approved to
          export product to Japan. 8 Therefore, he stated that there was no need to further
          communicate the Japan BEV program requirements to the district’s field inspectors.
          Neither the FSIS Frontline Supervisor nor the CSI were aware of the Japan BEV program
          requirements.

      •   AMS offered to provide FSIS copies of the QSA/EV Manuals of all companies on the
          approved BEV list. FSIS took the position that the manuals were proprietary business
          information and therefore did not want its inspectors to retain copies in their possession.
          FSIS instead asked AMS to require that plants make these manuals available to the
          inspectors upon request. (This position is consistent with how FSIS handles plant
          HACCP, SSOP, and SOP documents, which are also proprietary business documents.) In
          this case, since the inspector was not aware of the BEV program requirements, nor had he
          been trained on what documents and/or information was available, he did not know to ask
          the plant for their QSA/EV manual. To increase inspectors’ awareness of the
          requirements for the BEV program and export certification, FSIS is developing training
          for CSIs. We are recommending that FSIS incorporate a proficiency test in its training for
          those assigned to perform export certification. This would be similar to the actions taken
          by AMS to test meat graders on their ability to determine the age of cattle through
          physiological maturity evaluations of carcasses. During testing, meat graders must
          demonstrate a performance level of 98 percent accuracy.

      •   FSIS had not established specific management controls or provided specific supervisory
          oversight to inspectors to ensure that they understood Japan BEV requirements and were
          properly certifying product for export. FSIS plans to use its In-Plant Performance System
          (IPPS) reviews to validate that FSIS inspection personnel perform export certifications in

8
    Atlantic was approved to export product to Japan on January 6, 2006.
Secretary Johanns                                                                                7


       accordance with agency policy. However, the Performance Based Inspection System
       (PBIS) considers export tasks to be unscheduled inspection tasks and low risk for food
       safety. Therefore, IPPS does not include unique procedures for evaluating inspector
       performance on export tasks. FSIS needs to revise the IPPS review guidance to
       incorporate procedures that specifically evaluate the ability of inspection personnel to
       perform export certifications.

USDA has taken positive actions to identify additional measures necessary to strengthen its
controls and processes for ensuring compliance with the BEV program for Japan. These actions,
along with the actions taken in response to the following recommendations, should further
strengthen the program.

Recommendations

   1. AMS should include on its web site the specific beef products each plant has been
      approved to export.

   2. AMS and FSIS should jointly develop an operational process (compensating control) that
      requires confirmation of the eligibility of both the plant and the products for export, prior
      to FSIS certifying export documents.

   3. AMS should work with plant personnel to revise the QSA/EV Manuals to include the
      specific products and any additional process control requirements determined to be
      necessary for the BEV program for Japan.

   4. FSIS should clarify the roles and responsibilities of FSIS personnel involved at every
      stage of the export certification process.

   5. FSIS should expedite the development of training on export certification for CSIs. FSIS
      should also incorporate a proficiency test in its training for those assigned to perform
      export certification.

   6. FSIS should increase supervisory oversight of the export certification process by revising
      the IPPS review guidance to incorporate procedures that specifically evaluate the ability
      of inspection personnel to perform export certifications.

We met with officials from FSIS and AMS on February 7, 2006, to obtain their verbal comments
on the findings and recommendations. AMS and FSIS officials expressed agreement with the
report’s findings and recommendations.

We appreciate the assistance and cooperation we received from AMS and FSIS staff during this
audit.
Informational copies of this report have been distributed to:

Administrator, AMS
   ATTN: Agency Liaison Officer (6)
Administrator, FSIS
   ATTN: Agency Liaison Officer (20)
Government Accountability Office (1)
Office of Management and Budget (1)
Office of the Chief Financial Officer
  Director, Planning and Accountability Division (1)
